Department of Health and Human Services
                   OFFICE OF
              INSPECTOR GENERAL




MEDICARE COMPLIANCE REVIEW OF
SAINT MICHAEL’S MEDICAL CENTER
FOR THE PERIOD JANUARY 1, 2009,
    THROUGH JUNE 30, 2011




  Inquiries about this report may be addressed to the Office of Public Affairs at
                           Public.Affairs@oig.hhs.gov.




                                                    James P. Edert
                                               Regional Inspector General

                                                       March 2013
                                                      A-02-12-01005
                        Office of Inspector General
                                         https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices




    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as


 questionable, a recommendation for the disallowance of costs


 incurred or claimed, and any other conclusions and


 recommendations in this report represent the findings and 

 opinions of OAS. Authorized officials of the HHS operating


 divisions will make final determination on these matters.


                                   EXECUTIVE SUMMARY



BACKGROUND

Title XVIII of the Social Security Act (the Act) established the Medicare program, which
provides health insurance coverage to people aged 65 and over, people with disabilities, and
people with end-stage renal disease. The Centers for Medicare & Medicaid Services (CMS)
administers the Medicare program. CMS contracts with Medicare contractors to, among other
things, process and pay claims submitted by hospitals.

Section 1886(d) of the Act established the inpatient prospective payment system (IPPS) for
hospital inpatient services. Under the IPPS, CMS pays hospital costs at predetermined rates for
patient discharges. The rates vary according to the diagnosis-related group (DRG) to which a
beneficiary’s stay is assigned and the severity level of the patient’s diagnosis. The DRG
payment is, with certain exceptions, payment in full to the hospital for all inpatient costs
associated with the beneficiary’s stay.

CMS implemented an outpatient prospective payment system (OPPS) for hospital outpatient
services, as mandated by the Balanced Budget Act of 1997, P.L. No. 105-33, and the Medicare,
Medicaid, and the State Children’s Health Insurance Program Balanced Budget Refinement Act
of 1999, P.L. No. 106-113. Under the OPPS, Medicare pays for hospital outpatient services on a
rate-per-service basis that varies according to the ambulatory payment classification.

Prior Office of Inspector General (OIG) audits, investigations, and inspections identified certain
payments to hospitals that are at risk for noncompliance with Medicare billing requirements.
OIG identified these types of payments to hospitals using computer matching, data mining, and
analysis techniques. This review is part of a series of OIG reviews of Medicare payments to
hospitals for selected claims for inpatient and outpatient services.

Saint Michael’s Medical Center (the Hospital) is a 357-bed acute care hospital located in
Newark, New Jersey. Based on CMS’s National Claims History data, Medicare paid the
Hospital approximately $231 million for 16,071 inpatient and 52,750 outpatient claims with
service dates from January 1, 2009, through June 30, 2011.

Our audit covered approximately $4.2 million in Medicare payments to the Hospital for 174
inpatient and 56 outpatient claims that we identified as potentially at risk for billing errors.
These 230 claims had service dates from January 1, 2009, through June 30, 2011.

OBJECTIVE

Our objective was to determine whether the Hospital complied with Medicare requirements for
billing inpatient and outpatient services on selected claims.




                                                  i
SUMMARY OF FINDINGS

The Hospital complied with Medicare billing requirements for 132 of the 230 claims we
reviewed. However, the Hospital did not fully comply with Medicare billing requirements for
the remaining 98 claims, resulting in overpayments totaling $492,046 during the period
January 1, 2009, through June 30, 2011. Specifically, 71 inpatient claims had billing errors
resulting in overpayments totaling $450,942, and 27 outpatient claims had billing errors resulting
in overpayments totaling $41,104. These overpayments occurred primarily because the Hospital
did not have adequate controls to prevent incorrect billing of Medicare claims and its staff did
not fully understand the Medicare billing requirements within the selected areas of risk.

RECOMMENDATIONS

We recommend that the Hospital:

   •		 refund to the Medicare contractor $492,046, consisting of $450,942 in overpayments for
       71 incorrectly billed inpatient claims and $41,104 in overpayments for 27 incorrectly
       billed outpatient claims, and

   •		 strengthen controls to ensure full compliance with Medicare requirements.

SAINT MICHAEL’S MEDICAL CENTER COMMENTS

In written comments to our draft report, the Hospital concurred with our findings and provided
information on actions that it had taken or planned to take to address our recommendations. The
Hospital’s comments are included in their entirety as the Appendix.




                                                ii
                                                   TABLE OF CONTENTS



                                                                                                                                         Page

INTRODUCTION........................................................................................................................1



      BACKGROUND ...................................................................................................................1


         The Medicare Program ..................................................................................................1


         Hospital Inpatient Prospective Payment System ..........................................................1


         Hospital Outpatient Prospective Payment System.........................................................1


         Hospital Payments at Risk for Incorrect Billing ............................................................2


         Medicare Requirements for Hospital Claims and Payments .........................................2


         Saint Michael’s Medical Center.....................................................................................3



      OBJECTIVE, SCOPE, AND METHODOLOGY .................................................................3


         Objective ........................................................................................................................3


         Scope ..............................................................................................................................3


         Methodology ..................................................................................................................4



FINDINGS AND RECOMMENDATIONS ..............................................................................5



      BILLING ERRORS ASSOCIATED WITH INPATIENT CLAIMS....................................5


          Inpatient Short Stays ......................................................................................................5


          Inpatient Same-Day Discharges and Readmissions.......................................................5


          Inpatient Claims Billed with High Severity Level Diagnosis-Related Group Codes ....6


          Inpatient Claims Billed with Payments Greater Than $150,000 ...................................6



      BILLING ERRORS ASSOCIATED WITH OUTPATIENT CLAIMS................................6


          Outpatient Claims Billed with Modifier -59 ..................................................................6


          Outpatient Doxorubicin Hydrochloride ........................................................................7


          Outpatient Claims Billed With Observation Services That Resulted in Outlier


              Payments ................................................................................................................7


          Outpatient Intensity Modulated Radiation Therapy Planning Services.........................7


          Outpatient Claims Billed With Evaluation and Management Services .........................8



      RECOMMENDATIONS .......................................................................................................8



      SAINT MICHAEL’S MEDICAL CENTER COMMENTS..................................................8



APPENDIX

      SAINT MICHAEL’S MEDICAL CENTER COMMENTS




                                                                      iii
                                              INTRODUCTION



BACKGROUND

The Medicare Program

Title XVIII of the Social Security Act (the Act) established the Medicare program, which
provides health insurance coverage to people aged 65 and over, people with disabilities, and
people with end-stage renal disease. The Centers for Medicare & Medicaid Services (CMS)
administers the Medicare program. Medicare Part A provides inpatient hospital insurance
benefits and coverage of extended care services for patients after hospital discharge. Medicare
Part B provides supplementary medical insurance for medical and other health services,
including coverage of hospital outpatient services.

CMS contracts with Medicare contractors to, among other things, process and pay claims
submitted by hospitals.

Hospital Inpatient Prospective Payment System

Section 1886(d) of the Act established the inpatient prospective payment system (IPPS) for
hospital inpatient services. Under the IPPS, CMS pays hospital costs at predetermined rates for
patient discharges. The rates vary according to the diagnosis-related group (DRG) to which a
beneficiary’s stay is assigned and the severity level of the patient’s diagnosis. The DRG
payment is, with certain exceptions, payment in full to the hospital for all inpatient costs
associated with the beneficiary’s stay.

Hospital Outpatient Prospective Payment System

CMS implemented an outpatient prospective payment system (OPPS) for hospital outpatient
services, as mandated by the Balanced Budget Act of 1997, P.L. No. 105-33, and the Medicare,
Medicaid, and SCHIP (State Children’s Health Insurance Program) Balanced Budget Refinement
Act of 1999, P.L. No. 106-113. 1 The OPPS is effective for services furnished on or after
August 1, 2000. Under the OPPS, Medicare pays for hospital outpatient services on a rate-per­
service basis that varies according to the ambulatory payment classification (APC). CMS uses
Healthcare Common Procedure Coding System (HCPCS) codes and descriptors to identify and
group the services within each APC group. 2 All services and items within an APC group are
comparable clinically and require comparable resources. In addition to the basic prospective
payment under the IPPS or OPPS, hospitals may be eligible for an additional payment (called an
outlier payment) when the hospital’s costs exceed certain thresholds.




1
    In 2009, SCHIP was formally redesignated as the Children’s Health Insurance Program.
2
 HCPCS codes are used throughout the health care industry to standardize coding for medical procedures, services,
products, and supplies.

                                                         1


Hospital Payments at Risk for Incorrect Billing

Prior Office of Inspector General (OIG) audits, investigations, and inspections identified certain
payments to hospitals that are at risk for noncompliance with Medicare billing requirements.
OIG identified these types of payments to hospitals using computer matching, data mining, and
analysis techniques. The types of payments to hospitals reviewed by this and related audits
included payments for claims billed for:

    •   inpatient short stays,

    •   inpatient same-day discharges and readmissions,

    •   inpatient claims with payments greater than $150,000,

    •   inpatient claims billed with high severity level DRG codes,

    •   inpatient and outpatient manufacturer credits for replaced medical devices,



    •   outpatient claims with payments greater than $25,000,



    •   outpatient claims billed with evaluation and management services,



    •   outpatient claims billed with modifiers, 


    •   outpatient intensity modulated radiation therapy planning services,



    •   outpatient claims billed with observation services that resulted in outlier payments, and



    •   outpatient doxorubicin hydrochloride.



For the purposes of this report, we refer to these areas at risk for incorrect billing as “risk areas.”

This review is part of a series of OIG reviews of Medicare payments to hospitals for selected
claims for inpatient and outpatient services.

Medicare Requirements for Hospital Claims and Payments

Section 1862(a)(1)(A) of the Act states that Medicare payments may not be made for items or
services that “are not reasonable and necessary for the diagnosis or treatment of illness or injury
or to improve the functioning of a malformed body member.” In addition, section 1833(e) of the
Act precludes payment to any provider of services or other person without information necessary
to determine the amount due the provider.

Federal regulations (42 CFR § 424.5(a)(6)) state that the provider must furnish to the Medicare
contractor sufficient information to determine whether payment is due and the amount of the
payment.

                                                   2


The Medicare Claims Processing Manual (the Manual), Pub. No. 100-04, chapter 1, section
80.3.2.2, requires providers to complete claims accurately so that Medicare contractors may
process them correctly and promptly. Chapter 23, section 20.3, of the Manual states that
providers must use HCPCS codes for most outpatient services.

Saint Michael’s Medical Center

Saint Michael’s Medical Center (the Hospital) is a 357-bed acute care hospital located in
Newark, New Jersey. Based on CMS’s National Claims History data, Medicare paid the
Hospital approximately $231 million for 16,071 inpatient and 52,750 outpatient claims for
services provided to beneficiaries from January 1, 2009, through June 30, 2011.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the Hospital complied with Medicare requirements for
billing inpatient and outpatient services on selected claims.

Scope

Our audit covered $4,238,578 in Medicare payments to the Hospital for 230 claims that we
judgmentally selected as potentially at risk for billing errors. These 230 claims consisted of 174
inpatient and 56 outpatient claims with dates of service from January 1, 2009, through
June 30, 2011.

We focused our review on the risk areas that we had identified during and as a result of prior
OIG reviews at other hospitals. We evaluated compliance with selected billing requirements and
subjected only a limited number of claims to focused medical review to determine whether the
services were medically necessary.

We limited our review of the Hospital’s internal controls to those applicable to the inpatient and
outpatient areas of review because our objective did not require an understanding of all internal
controls over the submission and processing of claims. Our review enabled us to establish
reasonable assurance of the authenticity and accuracy of the data obtained from the National
Claims History file, but we did not assess the completeness of the file.

This report focuses on selected risk areas and does not represent an overall assessment of all
claims submitted by the Hospital for Medicare reimbursement.

We conducted our fieldwork at the Hospital from January through March 2012.




                                                 3


Methodology

To accomplish our objective, we:

   •		 reviewed applicable Federal laws, regulations, and guidance;

   •		 extracted the Hospital’s inpatient and outpatient paid claim data from CMS’s National
       Claims History file for the period January 1, 2009, through June 30, 2011;

   •		 obtained information on known credits for replacement cardiac medical devices from the
       device manufacturers for the period January 1, 2009, through June 30, 2011;

   •		 used computer matching, data mining, and analysis techniques to identify claims
       potentially at risk for noncompliance with selected Medicare billing requirements;

   •		 selected a judgmental sample of 230 claims (174 inpatient and 56 outpatient) for detailed
       review;

   •		 reviewed available data from CMS’s Common Working File for the sampled claims to
       determine whether the claims had been cancelled or adjusted;

   •		 reviewed the itemized bills and medical record documentation provided by the Hospital
       to support the sampled claims;

   •		 requested that the Hospital conduct its own review of the sampled claims to determine
       whether the services were billed correctly;

   •		 used CMS’s Medicare contractor medical review staff to determine whether a limited
       selection of sampled claims met medical necessity requirements;

   •		 reviewed the Hospital’s procedures for assigning HCPCS codes and submitting Medicare
       claims;

   •		 discussed the incorrectly billed claims with Hospital personnel to determine the


       underlying causes of noncompliance with Medicare requirements;



   •		 calculated the correct payments for those claims requiring adjustments; and

   •		 discussed the results of our review with Hospital officials.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.


                                                4


                          FINDINGS AND RECOMMENDATIONS

The Hospital complied with Medicare billing requirements for 132 of the 230 claims we
reviewed. However, the Hospital did not fully comply with Medicare billing requirements for
the remaining 98 claims, resulting in overpayments totaling $492,046 during the period January
1, 2009, through June 30, 2011. Specifically, 71 inpatient claims had billing errors resulting in
overpayments totaling $450,942, and 27 outpatient claims had billing errors resulting in
overpayments totaling $41,104. These overpayments occurred primarily because the Hospital
did not have adequate controls to prevent incorrect billing of Medicare claims and its staff did
not fully understand the Medicare billing requirements within the selected areas of risk.

Only risk areas with errors are listed in the findings and recommendations section below.

BILLING ERRORS ASSOCIATED WITH INPATIENT CLAIMS

The Hospital incorrectly billed Medicare for 71 of the 174 sampled inpatient claims that we
reviewed. These errors resulted in overpayments totaling $450,942.

Inpatient Short Stays

Section 1862(a)(1)(A) of the Act states that Medicare payments may not be made for items or
services that “are not reasonable and necessary for the diagnosis or treatment of illness or injury
or to improve the functioning of a malformed body member.”

For 65 of the 110 sampled claims, the Hospital incorrectly billed Medicare Part A for inpatient
claims that should have been billed as outpatient or outpatient with observation services
(64 claims) or did not have sufficient documentation to support the services billed (1 claim).
Hospital officials attributed the patient admission errors to a lack of clear understanding of the
use of screening criteria on the part of medical staff and inadequate internal controls for
monitoring short stays. As a result, the Hospital received overpayments totaling $342,825.

Inpatient Same-Day Discharges and Readmissions

Section 1862(a)(1)(A) of the Act states that Medicare payments may not be made for items or
services that “are not reasonable and necessary for the diagnosis or treatment of illness or injury
or to improve the functioning of a malformed body member.” The Manual, chapter 3, section
40.2.5, states “[w]hen a patient is discharged/transferred from an acute care Prospective Payment
System (PPS) hospital, and is readmitted to the same acute care PPS hospital on the same day for
symptoms related to, or for evaluation and management of, the prior stay’s medical condition,
hospitals shall adjust the original claim generated by the original stay by combining the original
and subsequent stay onto a single claim.”

Section 1815(a) of the Act precludes payment to any provider of services without information
necessary to determine the amount due the provider.




                                                 5


For 4 of the 16 sampled claims, the Hospital incorrectly billed Medicare separately for a related
discharge and readmission within the same day (1 claim), for an inpatient claim that should have
been billed as outpatient (1 claim), or for services that did not have sufficient documentation in
the medical record to support the services billed on the inpatient claim (2 claims). Hospital
officials stated that the errors occurred because of staff turnover and dissolution of the Hospital’s
readmission task force. As a result, the Hospital received overpayments totaling $82,091.

Inpatient Claims Billed with High Severity Level Diagnosis-Related Group Codes

Section 1862(a)(1)(A) of the Act states that Medicare payments may not be made for items or
services that “are not reasonable and necessary for the diagnosis or treatment of illness or injury
or to improve the functioning of a malformed body member.”

For 1 of the 13 sampled claims, the Hospital incorrectly billed Medicare Part A for an inpatient
claim that should have been billed as outpatient or outpatient with observation services. Hospital
officials attributed the error to a lack of clear understanding of the use of screening criteria on the
part of medical staff and inadequate internal controls for monitoring short stays. As a result, the
Hospital received an overpayment of $21,678.

Inpatient Claims with Payments Greater Than $150,000

The Manual, chapter 3, section 10, states that a hospital may bill only for services provided. In
addition, chapter 1, section 80.3.2.2, states, “In order to be processed correctly and promptly, a
bill must be completed accurately….”

For one of two sampled claims, the Hospital billed Medicare for an incorrect number of units
related to pharmacy and laboratory services, and medical supplies. Due to the incorrect number
of units billed, charges were overstated resulting in a higher outlier payment than was warranted.
Hospital officials stated that this was due to human error. As a result, the Hospital received an
overpayment of $4,348.

BILLING ERRORS ASSOCIATED WITH OUTPATIENT CLAIMS

The Hospital incorrectly billed Medicare for 27 of 56 sampled outpatient claims that we
reviewed. These errors resulted in overpayments totaling $41,104.

Outpatient Claims Billed With Modifier -59

Section 1833(e) of the Act precludes payment to any provider of services or other person without
information necessary to determine the amount due the provider. The Manual, chapter 23,
section 20.9.1.1(B), states: “The ‘-59’ modifier is used to indicate a distinct procedural service
…. This may represent a different session or patient encounter, different procedure or surgery,
different site, or organ system, separate incision/excision, or separate injury (or area of injury in
extensive injuries).” In addition, the Manual, chapter 1, section 80.3.2.2, states, “In order to be
processed correctly and promptly, a bill must be completed accurately….”



                                                  6


For 10 of the 14 sampled claims, the Hospital incorrectly billed Medicare for HCPCS codes that
were included in payments for other services billed on the claim or did not require modifier -59.
Hospital officials stated these errors occurred primarily because of human error, including the
hospital staff’s misinterpretation of Medicare billing requirements for claims with modifier -59.
As a result, the Hospital received overpayments totaling $16,429.

Outpatient Doxorubicin Hydrochloride

Section 1833(e) of the Act states: “No payment shall be made to any provider of services …
unless there has been furnished such information as may be necessary in order to determine the
amounts due such provider … for the period with respect to which the amounts are being
paid ….” In addition, the Manual, chapter 1, section 80.3.2.2, states, “In order to be processed
correctly and promptly, a bill must be completed accurately….”

For 7 of the 10 sampled claims, the Hospital billed Medicare using the incorrect HCPCS code for
the doxorubicin drug administered. Hospital officials stated that these errors occurred because of
human error. As a result, the Hospital received overpayments totaling $22,867.

Outpatient Claims Billed With Observation Services That Resulted in Outlier Payments

The Manual, chapter 4, section 290.2.2, states, “observation time begins at the clock time
documented in the patient’s medical record, which coincides with the time that observation care
is initiated in accordance with a physician’s order. Hospitals should not report, as observation
care, services that are part of another Part B service, such as postoperative monitoring during a
standard recovery period (e.g., 4-6 hours), which should be billed as recovery room services.”

For all five sampled claims, the Hospital billed Medicare for observation services that were part
of other Part B services. Specifically, the Hospital incorrectly billed for observation services
that were, in fact, postoperative monitoring or standard recovery care. Hospital officials stated
that these errors occurred because Hospital personnel did not fully understand the billing
requirements for observation services. As a result, the Hospital received overpayments totaling
$1,056.

Outpatient Intensity Modulated Radiation Therapy Planning Services

The Manual, chapter 1, section 80.3.2.2, states: “In order to be processed correctly and promptly,
a bill must be completed accurately….” In addition, chapter 4, section 200.3.2, requires that
certain services should not be billed when they are performed as part of developing an intensity
modulated radiation therapy (IMRT) plan.

For four of the five sampled claims, the Hospital incorrectly billed Medicare for services that
were performed as part of developing an IMRT plan. Hospital officials stated that these errors
occurred because Hospital staff were unaware of or did not fully understand IMRT billing
requirements. As a result, the Hospital received overpayments totaling $542.




                                                7


Outpatient Claims Billed With Evaluation and Management Services

Section 1833(e) of the Act precludes payment to any provider of services or other person without
information necessary to determine the amount due the provider. In addition, the Manual,
chapter 1, section 80.3.2.2, states, “In order to be processed correctly and promptly, a bill must
be completed accurately.”

For one of the five sampled claims, the Hospital incorrectly billed Medicare for a claim that did
not have sufficient documentation to support the services billed. Hospital officials stated that the
error occurred because of human error. As a result, the Hospital received an overpayment of
$210.

RECOMMENDATIONS

We recommend that the Hospital:

   •		 refund to the Medicare contractor $492,046, consisting of $450,942 in overpayments for
       71 incorrectly billed inpatient claims and $41,104 in overpayments for 27 incorrectly
       billed outpatient claims, and

   •		 strengthen controls to ensure full compliance with Medicare requirements.

SAINT MICHAEL’S MEDICAL CENTER COMMENTS

In written comments to our draft report, the Hospital concurred with our findings and provided
information on actions that it had taken or planned to take to address our recommendations. The
Hospital’s comments are included in their entirety as the Appendix.




                                                 8


APPENDIX


                                                                                                   Page 1 of 7


APPENDIX: SAINT MICHAELS’S MEDICAL CENTER COMMENTS




                                             .s!ll!!:.
                                             1r
                              Saint Michael's
                              MEDICAL CENTER
                              A MEMBER OF CATHOLIC HEALTH EAST




                                                    December 20,2012

 James P. Edert
 Office of Audit Services, Region II
 Jacob K. Javits Federal Building
 26 Federal Plaza, Room 3900
 New York, NY 10278

 Re: Report#: A-02-12-01005

 Dear Ms. Edert:

 Enclosed please find a paper copy and an electronic CD version of Saint Michael's Medical
 Center ("SMMC") responses and action plan relevant to the draft report# A-02-12-01 005
 entitled Medicare Compliance Review ofSMMC for the Period January 1, 2009 through June
 30, 2011.

 Should you have any questions, concerns, or require additional information please contact me at
 973-877-5218- nbisco@smmcnj.org or Michael Alwell at 973-877-2853-
 malwell@smmcnj.org .

 Thank you for your continued cooperation and consideration.


 Regards,


  /Nancy Bisco/
 Nancy Bisco
 VP, Corporate Compliance


  /Michael Alwell/
 Michael Alwell
 VP, Revenue Cycle

                                                1
                                                                                                      Page 2 of 7






BILLING ERRORS ASSOCIATED W I'l' H INPATl ENT CLAl MS: As per the OIG audit
findings, SMMC inconectly billed Medi care for 71 of the 174 sampled inpatient claims that
were reviewed. These etTors resulted in overpayments totaling $450,942 relating to IP claims.
Identified issues are as follows:

Inpatien t Sh or1 Stavs

O IG Findings:
SMMC incon·ectl y hilled Medicare Part A for Inpatient ("!P") claims that should have been
billed as Outpatient ("OP") or OP with observation ser vices or did not have sufficient
documentation to support the services billed. As a result, SMMC received overpayments
totaling $342,825.
Comments :
During 2009-2010 there were misconceptions involving the use of screening criteria on the part
of the medical staff. In addition, SMMC had limited case management and physician advisor
coverage during that time period. SMMC relied heavily on physician intent and written orders to
support the billing of an IP claim.

Plan of Correction:
>    In early 2011, systems were changed to prevent shott stay inpatient claims from being
     billed before being reviewed by a physician advisor;
     Case Management staffing levels were improved including the addition of a case manager
     in the emergency department;
     SMMC has provided ell:tensive education to all attending physicians and residents
     regarding the proper use of screening criteria to support inpatient hospitalization or
     outpatient observation services;
     SMMC is cm-rently exploring using an outside finn to supplement the in-house physician
     advisor services in an effort to provide 24 hour, 7 day per week reviews, and is utilizing a
     consultant to evaluate the c urrent case managem ent staffing and operations.


l npatiettt Sam e-Day Disch a rges aJtd R<'.adm:ission s

OIG Findings:
SMMC incorrectl y billed Medicare separately for a related discharge and readmission within the
same day (1 claim), for an IP claim that should have been billed as OP (1 claim), and for services
that did not have sufl'icient documentation in the medical record to support the services billed on
the IP claim (2 claims). As a result, S.MMC received overpayments totaling $82,091.
Conunents:
·n1e cases reviewed were aged accounts. The general practice is for a phys ician to write a fonnal
order for inpatient admission (when appropriate) at th e same time that he/she writes post­
procedure orders and notes or as a part of his/her initial admitting orders;. 1he addition of
previous admission and discharge dates to patient face sheets was not implemented until early
2011.



                                                  2
                                                                                                      Page 3 of 7






Pl:m ofCon·ection:
 > On February 13, 2012, the Chief Medical Officer and VP of Corporate Compliance
       distributed a memo reminding all physicians and residents of their obligation to provide
       clear orders for hospitalization at the appropriate level (inpatient admission, outpatient
       observation). ll1ese orders must reflect the physician's intent based on clinical fmdings
       and must be included in every set of initial orders;
 > Random audits have since been perfonned to evaluate compliance with this requirement
       and the floor staff on each unit have been re-educated of the requirements . These audit~
       will continue on a regular basis over the next 6-12 months;
 > Case Management will continue to closely review the clinical conditions of all patients
       who are discharged and readmitted on the same day. If appropriate, claims will be
       combined before billing when the discharge and readmission are clinically related;
 > A re-admission task force shall be reestablished to ensure that every same day
       readmission is reviewed for the possible need to combine for billing purposes.

Inpatient Claims Billed with High Severitv Level Diagnosis-Related Group Codes

OIG Findings:
For 1 of the 13 sampled claims, SMMC incorrectly billed Medicare Part A for an inpatient claim
that should have been billed as OP or OP with observation services. As a result, SMMC
received overpayments totaling $2 1,678.
Comments:
Inpatient reservations for scheduled procedures or direct admissions are booked through the
admitting department based on physician's expectations for need of post procedure inpatient
hospitalization or a medical condition warranting an inpatient stay. l11e general practice is for a
physician to write a fonnal order for IP admission (when appropriate) at the same time that
he/she writes post-procedure orders & notes or as a patt of his/her initial admitting orders.

Plan of Correction:
>    On February 13, 2012, the Chief Medical Officer and VP of Corporate Compliance
     distributed a memo reminding all physicians and residents of their obligation to provide
     clear orders for hospitalization at the appropriate level (inpatient admission, outpatient
     observation). These orders must reflect the physician's intent based on clinical findings and
     must be included in every set of initial orders;
> Random audits have since been perfonned to evaluate compliance with this requirement
     and the floor staff on each unit have been re-educated of the requirements. These audits
     will continue on a regular basis over the next 6-12 months .

Inpatient. Claims with Payments Greater than $150,000

OIG Findings:
For one of the two sampled claims, SMMC billed Medicare for an incorrect number of tmits
related to pham1acy and laboratory services, and medical supplies. Due to the incorrect number
of units billed, charges were overstated resulting in a higher outlier payment than was warranted.
As a result, SMMC received overpayments totaling $4,348.


                                                 3
                                                                                                      Page 4 of 7






Comments :
·n1e en·or related to medications that were dispensed to the patient unit but weren't admi11istered
to the patient for various reasons. TI1e phannacy system in place at that time charged on the
dispensing of the medi cation and was dependent on medications being retumed to the pham1acy
for crediting when they were not administered. At times the medications were retumed to the
pharmacy but were not labeled with patient information for proper crediting thereby causing the
inability to post the proper credits.

Pl:m of'Con·ect.ion:
)i>    Ln March 2012, the hospital 's phannacy computer system was upgraded whereby
       medication charges are now applied at the point of administration via bar code scanning.


BILLING ERRORS AS SOCIA TED WITH OUTPATIENT CLAIMS: As per the OIG audit
findings, SMMC incorrectly billed Medicare for 27 of 56 outpatient claims that were reviewed.
As a result, SMMC received overpayments totaling $41, 104 relating to OP claims. Identified
issues are as follows:

Outpatient Claims Billed with Modifier -59

OIG Findings:
For 10 of the 14 sampled claims, SMMC incorrectly billed Medicare for HCPCS codes that were
included in payments for other services billed on the claim or did not require Modifier-59. As a
result, SMMC received overpayments totaling $16,429.
C01mncnts:
Each OP clinical department maintains a medical record for each patient which includes
documentation to support the services billed. Charges are entered and applicable modifiers
applied by the department staff on a daily basis based on the documentation contained in the
medical record. Charges for ancillary servi ces including EKGs are entered by the OP
depmtment based on physician orders, however there are situations where the established
standards of care for specific services required additional m1cillary services as part of the
treatment or procedure but are not separately billable based on Correct Coding Initiatives
("CCI"). TI1e identified issues were primarily human error and associates misinterpreting
Medicare billing requirements for claims with Modifier-59.
·n1e coding and billing of the claims that did not require Modifier-59 was correct, however the
application of the modifier was not required as there weren't any CCI edits for the combination
of billed procedures. The associate who entered the procedure charges added the modifier in
error.
There were sampled clainlS reviewed whereby it was identified that there were inappropriate
charges for EKGs. TI1ese services were perfonned however they should not have been billed
separately because the EKG is considered bundled with the cardiac procedure that wa~
performed.
·n1e claims which had incorrect charges were primarily related to the billing of cardiac
monitoring that are considered integral to the procedure that was performed but not necessarily
billable as separate services.


                                                 4
                                                                                                    Page 5 of 7






Pl:m ofCon ·ection:
>      Staff was re-educated i11 the proper use of Modifer-59;
>      Additional education was provided by an outside consultant in June 2012 during a 10 day
       on-site intensive coding/billing boot camp;
> Staff was specifically re-educated as to when an EKG is considered to be a separately
      billable service item.

Outpatient Doxorubicin Hvdroch.lmide

OIG Findings:
For 7 of the 10 sampled claims, SMMC billed Medicare using the incoJTect HCPCS code for the
doxorubicin drug administered. As a result, SMMC received overpayments totaling $22,867.
Comments:
Intemal controls rely upon the Pharmacy Manager and Chargemaster Coordinator to ensure that
phannaceutical " J-codes" are assigned properly and mapped con·ectl y. ll1e identified issues
were a result of human eJTor.

Plan of Con·ection:
>      Chargemaster mapping was coJTected and appropriate associates in the Pharmacy
       Department received additional education and training relevant to this issue;
> Entire Phannacy Chargemaster has been reviewed for accuracy as part of the CHE
       system-wide standardization.

Outpatient Oaims Billed With Observation Services That Resulted in Outlier Payments

OIG Findings:
For 5 sampled claims, SMMC billed Medicare for observation services that were prut of other
Part B services. Specifically, SMMC incon·ectly billed for observation services that were, in
fact, postoperative monitoring or standard recovery room care. As a result, SM MC received
overpayments totaling $1,056.
Comments:
At the time of these cases, there wa~ a misconception on the part of the physicians regarding the
proper use of observation services post procedure. Physicians were of the understanding that any
patient that was kept in the hospital ovemight would meet the criteria for observation services
given the fact that the patient was being "observed" for an extended period of time post­
procedure.

Plan of Correction:
>      SMMC has provided extens ive education to the medical staff rutd resident house staff in
       regard to the proper use of OP observation services ru1d OP exiended recovery;
> Ca~e Management will continue to monitor and work with the physicians regarding the
       appropriateness of status of all inpatient and observation patients.




                                               5
                                                                                                      Page 6 of 7






Outpatient Intensity Modulated Radiation Therapy Planning Services

OIG Findings:
For 4 of the 5 sampled claims, SMMC incorrectly billed Medicare for services that were
perfonned as part of developing an Intensity Modulated Radiation ll1erapy ("IMRT') plan. As a
result, SMMC received overpayments totaling $ 542.
Comments :
1l1e clerical staff in the Radiation Therapy department perfom1s charge entry based on the
technician's charge entry documentation. CPT-4 coding changes were implemented during the
time that these services were perfonned. It appeared that the updated coding requirements may
not have been disseminated to all charge entry personnel.

J>lan of Con ·ection:
~        All charging departments received chargemaster education from an outside consultant
         between June 11 and June 19, 2012;
~        The Oncology Services Director received additional training which was shared with
         staff.

Outpatient Claims Billed With Evaluation and Man agement ("E&M") Services

OIG Findings:
For 1 of the 5 sampled claims, SMMC incorrectly billed Medicare for a claim that did not have
sufficient documentation to support the services billed. As a result, SMMC received an
overpayment of $210.
C01mncnts:
OP clinical departments maintain a medical record for each patient which includes
documentation to support the services billed. Charges are entered by the department staff on a
daily basis and charge entry is based on the documentation contained in the patient' s medical
record. Regarding the one claim mentioned above, the associate that entered the charges
interpreted the documented nursing interaction with the patient to be separate ru1d distinct from
the scheduled clinical services. It has been detennined that the nursing interaction ru1d education
was related to the scheduled infusion. Therefore, the billing of a separate evaluation and
management code with a modifier was incorrect.

J>Ian of Correction:
~       Staff was re-educated in the proper use of E&M codes and modifiers;
~       All charging departments received chargemaster education from an outside consultant
        between June 11 ru1d .June 19,2012.

CONCLUSIONS:

•      010 auditor findings were shared with SMMC mru1agement;
•      1l1e audit concluded with the identification of $492,046 in overpayments made to SMMC
       byCMS;



                                                 6
                                                                                                Page 7 of 7






•   SMMC has already processed a repayment of $21,419 relating to the billing of cancer
    treatment drugs (Doxorubicin Hydrochloride), leaving a gross overpayment of $470,627;
•   SMMC will contact the Medicare Administrati ve Contractor ("MAC") to an·ange for the
    reprocessing of all claims that were found to have been paid in error and to verify that
    any improperly billed short stay inpatient claims may be resubmitted as Outpatient claims
    - reducing the net pay back to the Medicare program.




                                            7
